Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




COMPARING AVERAGE SALES
  PRICES AND AVERAGE
MANUFACTURER PRICES FOR
 MEDICARE PART B DRUGS:
  AN OVERVIEW OF 2012




                    Daniel R. Levinson
                     Inspector General

                      March 2014
                     OEI-03-13-00570
EXECUTIVE SUMMARY: COMPARING AVERAGE SALES PRICES AND
AVERAGE MANUFACTURER PRICES FOR MEDICARE PART B DRUGS:
AN OVERVIEW OF 2012
OEI-03-13-00570

WHY WE DID THIS STUDY
When Congress established average sales prices (ASPs) as the primary basis for
Medicare Part B drug reimbursement, it also mandated that the Office of Inspector
General (OIG) compare ASPs with average manufacturer prices (AMPs) and directed the
Centers for Medicare & Medicaid Services (CMS) to substitute payment amounts for
drugs with ASPs that exceed AMPs by a threshold of 5 percent. To comply with its
statutory mandate, OIG has completed 29 quarterly pricing comparisons since the ASP
reimbursement methodology for Part B drugs was implemented in January 2005. CMS
began substituting payment amounts in April 2013 in accordance with its published price
substitution policy, which currently applies to only certain codes with complete AMP
data.

HOW WE DID THIS STUDY
We identified (1) drug codes that would have been eligible for price substitution on the
basis of data from one or more quarters of 2012, (2) the codes for which CMS actually
substituted prices, and (3) the codes that would not have been eligible for price
substitution because they did not meet one or more of CMS’s substitution criteria. We
also estimated savings for each of the drug codes that exceeded the 5-percent threshold in
a given quarter of 2012.

WHAT WE FOUND
Under CMS’s price substitution policy, 14 drug codes would have been subject to
reimbursement reductions on the basis of data from 2012, saving Medicare and its
beneficiaries an estimated $1.8 million between the fourth quarter of 2012 and the third
quarter of 2013. However, because CMS did not begin substituting prices until the
second quarter of 2013, only eight drug codes were actually subject to reductions,
generating an estimated $819,000 in savings. If CMS had expanded its price substitution
criteria, the agency could have generated a quarter of a million dollars in additional
savings.

WHAT WE RECOMMEND
CMS has already generated savings by implementing its current price substitution criteria
and could achieve even greater savings by expanding those criteria. Therefore, we
recommend that CMS (1) expand the price substitution policy to include drug codes with
complete AMP data in a single quarter and (2) expand the price substitution policy to
include drug codes with partial AMP data. CMS did not concur with either of our
recommendations.
TABLE OF CONTENTS

Objectives ....................................................................................................1 

Background ..................................................................................................1 

Methodology ................................................................................................5 

Findings........................................................................................................8 

           CMS’s price substitution policy would have saved Medicare and
           its beneficiaries almost $2 million over 1 year ................................8 

           Expanding the price substitution criteria would have generated
           a quarter of a million dollars in additional savings for
           Medicare and its beneficiaries .........................................................9 

Conclusion and Recommendations ............................................................11

Agency Comments and Office of Inspector General Response.................13 

Appendixes ................................................................................................14 

           A: CMS’s Equation for Calculating Volume-Weighted Average 

           Sales Prices ....................................................................................14 

           B: Detailed Methodology for Calculating Volume-Weighted                                                        

           Average Manufacturer Prices for 2012 ..........................................15 

           C: Nineteen Drug Codes That Would Have Been Eligible for 

           Price Reduction If Criteria Had Been Expanded to Include All 

           Codes With Complete Average Manufacturer Price Data ..............17 

           D: Five Drug Codes That Would Have Been Eligible for                                                       

           Price Reduction If Criteria Had Been Expanded to Include Codes                                                 

           With Partial Average Manufacturer Price Data ..............................18 

           E: Agency Comments ...................................................................19 

Acknowledgments......................................................................................21 

                  OBJECTIVES
                  1.	 To estimate the financial impact of substituting Medicare Part B
                      reimbursement amounts for drugs in 2012 that met criteria established
                      by the Centers for Medicare & Medicaid Services (CMS).
                  2.	 To estimate the financial impact of expanding CMS’s criteria for price
                      substitution.

                  BACKGROUND
                  The Social Security Act (the Act) mandates that the Office of Inspector
                  General (OIG) compare average sales prices (ASPs) with average
                  manufacturer prices (AMPs).1 The Act states that if OIG finds that the
                  ASP for a drug exceeds the AMP by a certain percentage (currently
                  5 percent), the Secretary of Health and Human Services (the Secretary)
                  may disregard the ASP for the drug when setting reimbursement
                  amounts.2, 3 The Act further states:
                           … the Inspector General shall inform the Secretary (at such times
                           as the Secretary may specify to carry out this subparagraph) and
                           the Secretary shall, effective as of the next quarter, substitute for
                           the amount of payment … the lesser of (i) the widely available
                           market price … (if any); or (ii) 103 percent of the average
                           manufacturer price….4
                  Coverage of Prescription Drugs Under Medicare Part B
                  Medicare Part B covers a limited number of outpatient prescription drugs,
                  including injectable drugs administered by a physician; oral anticancer
                  drugs and immunosuppressive drugs; drugs used in conjunction with
                  durable medical equipment; and some vaccines.
                  Payments for Prescription Drugs Under Medicare Part B
                  To obtain reimbursement for covered outpatient prescription drugs, health
                  care providers submit claims to Medicare contractors using Healthcare
                  Common Procedure Coding System (HCPCS) codes. In the case of
                  prescription drugs, each HCPCS code defines the drug name and the
                  amount of the drug represented by the HCPCS code but does not specify
                  the manufacturer or package size.

                  1
                    Section 1847A(d)(2)(B) of the Act. 

                  2
                    Section 1847A(d)(3)(A) of the Act. 

                  3
                    Section 1847A(d)(3)(B)(ii) of the Act authorizes the Secretary to adjust the applicable 

                  threshold percentage in 2006 and subsequent years; however, the threshold percentage

                  has been maintained at 5 percent.

                  4
                    Section 1847A(d)(3)(C) of the Act. 




Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)                    1
                  Medicare and its beneficiaries spent $13.6 billion for Part B drugs in
                  2012.5 Although Medicare paid for more than 700 outpatient prescription
                  drug HCPCS codes that year, spending for Part B drugs was concentrated
                  on a relatively small subset of those codes. In 2012, 72 HCPCS codes
                  accounted for 90 percent of the expenditures for Part B drugs; only 16 of
                  these codes represented the majority of Part B drug expenditures.
                  Reimbursement Methodology for Part B Drugs
                  Medicare Part B pays for most covered drugs using a reimbursement
                  methodology based on ASPs. As defined by law, an ASP is the
                  manufacturer’s sales of a drug to all purchasers in the United States in a
                  calendar quarter divided by the total number of units of the drug sold by
                  the manufacturer in that same quarter.6 Manufacturers that participate in
                  the Medicaid drug rebate program must provide CMS with the ASP and
                  volume of sales for each of their national drug codes (NDCs) on a
                  quarterly basis; submissions are due 30 days after the close of each
                  quarter.7 An NDC is an 11-digit identifier that represents a specific
                  manufacturer, product, and package size.
                  Because Medicare Part B reimbursement for outpatient drugs is based on
                  HCPCS codes rather than NDCs and more than one NDC may meet the
                  definition of a particular HCPCS code, CMS has developed a file that
                  matches, or “crosswalks,” manufacturers’ NDCs to HCPCS codes. CMS
                  uses information in this crosswalk file to calculate volume-weighted ASPs
                  for covered HCPCS codes.8




                  5
                    Medicare expenditures for Part B drugs in 2012 were calculated using CMS’s Part B
                  Analytics Reporting System (PBAR). 

                  6
                    Section 1847A(c) of the Act. The ASP is net of any price concessions, with limited

                  exceptions. 

                  7
                    Section 1927(b)(3) of the Act. 

                  8
                    The equation that CMS uses to calculate volume-weighted ASPs is described in

                  section 1847A(b)(6) of the Act and is provided in Appendix A.




Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)                  2
                  Under the ASP pricing methodology, the Medicare reimbursement for
                  most Part B drugs is equal to 106 percent of the volume-weighted ASP for
                  the HCPCS code.9, 10 However, there is a two-quarter lag between the sales
                  period for which ASPs are reported and the effective date of the
                  reimbursement amounts. For example, ASPs from the first quarter of
                  2012 were used to establish reimbursement amounts for the third quarter
                  of 2012.
                  Manufacturer Reporting of AMPs
                  In addition to providing quarterly ASPs, manufacturers that participate in
                  the Medicaid drug rebate program must provide CMS with the AMP for
                  each of their NDCs on a quarterly basis; quarterly AMP submissions are
                  due 30 days after the end of each quarter. 11
                  The AMP is generally calculated as a weighted average of prices for all of
                  a manufacturer’s package sizes of a drug and is reported for the lowest
                  identifiable quantity of the drug (e.g., 1 milliliter, one tablet, one capsule).
                  By law, AMP is defined as the average price paid to the manufacturer for
                  the drug in the United States by (1) wholesalers for drugs distributed to
                  retail community pharmacies and (2) retail community pharmacies that
                  purchase drugs directly from the manufacturer.12, 13
                  OIG’s Monitoring of ASPs and AMPs
                  To comply with its statutory mandate, OIG has completed 29 quarterly
                  pricing comparisons since the ASP reimbursement methodology for Part B
                  drugs was implemented in January 2005.14 In addition, OIG has

                  9
                    Section 1847A(b)(1) of the Act. Medicare beneficiaries are responsible for 20 percent
                  of this amount in the form of coinsurance.
                  10
                     Part B claims dated on or after April 1, 2013, incur a reduction in payment in
                  accordance with the Budget Control Act of 2011 and the American Taxpayer Relief Act
                  of 2012 (see CMS Medicare FFS Provider e-News, Mandatory Payment Reductions in
                  the Medicare Fee-for-Service (FFS) Program –“Sequestration,” March 8, 2013). Under
                  this mandatory payment reduction, the effective payment rate for most Part B drugs is
                  104.3 percent of the volume-weighted ASP.

                  11
                     Section 1927(b)(3) of the Act and 42 CFR §§ 447.510(a) and (d). 

                  12
                     Section 1927(k)(1) of the Act, as amended by § 2503 of the Patient Protection and 

                  Affordable Care Act, P.L. 111-148.
                  13
                     Pursuant to § 1927(k)(10) of the Act, “retail community pharmacy” means an
                  independent, chain, supermarket, or mass merchandiser pharmacy that is licensed as a
                  pharmacy by the State and that dispenses medications to the general public at retail
                  prices. Such term does not include pharmacies that dispense prescription medications to
                  patients primarily through the mail; pharmacies in nursing homes, long-term-care
                  facilities, or hospitals; clinics; charitable or not-for-profit pharmacies; government
                  pharmacies; or pharmacy benefit managers.
                  14
                     This report total includes pricing comparisons for five quarters that were not made
                  available to the public. OIG issued the results for these quarters directly to CMS to
                  facilitate price substitutions.



Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)                3
                  completed five annual overviews of ASPs and AMPs for the years 2007
                  through 2011. OIG has consistently recommended that CMS lower
                  reimbursement for drugs that exceed the 5-percent threshold as directed by
                  the Act.
                  AMP-Based Price Substitutions
                  In November 2012, CMS published a final rule that, among other things,
                  specifies the criteria for AMP-based price substitutions.15, 16 Pursuant to
                  this final rule, CMS substitutes 103 percent of the AMP for the ASP-based
                  reimbursement amount when OIG identifies a HCPCS code that exceeds
                  the 5-percent threshold in two consecutive quarters or three of four
                  quarters.17 Because CMS believes that comparisons based on partial AMP
                  data may not adequately reflect market trends, the agency lowers
                  reimbursement amounts only when ASP and AMP comparisons are based
                  on the same set of NDCs (i.e., are based on complete AMP data).18 To
                  prevent the price substitution policy from inadvertently raising Medicare
                  reimbursement amounts, CMS does not substitute prices when the
                  substituted amount is greater than the ASP-based payment amount
                  calculated for the quarter in which the price substitution takes effect.19
                  CMS also does not substitute prices when the drug and dosage form
                  described by the HCPCS code are identified by the Food and Drug
                  Administration (FDA) as being in short supply.20 Price substitutions take
                  effect in the quarter after OIG shares the results of its most recent pricing
                  comparison and remain in effect for one quarter.21

                  15
                     77 Fed. Reg. 68892, 69368 (Nov. 16, 2012). 

                  16
                     This is the third time that CMS has pursued rulemaking on AMP-based price 

                  substitutions. In July 2010, CMS published a proposed rule that specified the 

                  circumstances under which AMP-based price substitutions would occur, effective 

                  January 2011(75 Fed. Reg. 40040, 40259 (July 13, 2010)); however, the agency opted not 

                  to finalize this proposed rule partly on the basis of impending changes to the definition of

                  AMP (75 Fed. Reg. 73170, 73471 (Nov. 29, 2010)). In November 2011, CMS published

                  a final rule that again specified circumstances under which price substitutions would 

                  occur (76 Fed. Reg. 73026, 73473 (Nov. 28, 2011)), but the agency did not implement 

                  that policy in light of access concerns related to drug shortages. 

                  17
                     77 Fed. Reg. 68892, 69368 (Nov. 16, 2012). CMS has expressed concern that price 

                  substitutions based on results from a single quarter will not accurately account for 

                  temporary fluctuations in market prices and believes that focusing on drugs that

                  consistently exceed the threshold over multiple quarters is more appropriate. See, e.g., 

                  76 Fed. Reg. 73026, 73288, 73291 (Nov. 28, 2011). 

                  18
                     76 Fed. Reg. 73026, 73289 (Nov. 28, 2011). 

                  19
                     77 Fed. Reg. 68892, 69368 (Nov. 16, 2012). See also 75 Fed. Reg. 40040, 40158

                  (July 13, 2010). For example, if the AMP-based substitution amount were $5 and the 

                  ASP-based reimbursement amount were $4 for the quarter in which the substitution 

                  would take place, CMS would not make the price substitution.

                  20
                     77 Fed. Reg. 68892, 69368 (Nov. 16, 2012). 

                  21
                     See, e.g., 76 Fed. Reg. 73026, 73473 (Nov. 28, 2011). 




Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)                   4
                  CMS began applying its price substitution policy to reimbursement
                  amounts published for the second quarter of 2013. Because of the
                  two-quarter lag between the period for which ASPs are reported and the
                  effective date of reimbursement amounts and the additional quarter that is
                  necessary for OIG to complete its pricing comparison, there is a
                  three-quarter lag between the ASP reporting period and the effective date
                  of the price substitutions. Therefore, price substitutions that were
                  published by CMS for the second quarter of 2013 were based on
                  comparison of ASPs and AMPs from the third quarter of 2012.

                  METHODOLOGY
                  We obtained files from CMS containing NDC-level ASP data from the
                  first through fourth quarters of 2012, which were used to establish
                  Part B drug reimbursement amounts for the third quarter of 2012 through
                  the second quarter of 2013, respectively. These files also include
                  information that crosswalks NDCs to their corresponding HCPCS codes.
                  We also obtained ASP-based reimbursement amounts for the quarters in
                  which price substitutions would have occurred/did occur (i.e., the fourth
                  quarter of 2012 through the third quarter of 2013),22 as well as AMP data
                  and wholesale acquisition cost (WAC) data from CMS for the first through
                  fourth quarters of 2012.23
                  Calculating Volume-Weighted AMPs for 2012
                  As part of our analysis for each quarter of 2012, we calculated a
                  volume-weighted AMP for each HCPCS code, consistent with CMS’s
                  methodology for calculating volume-weighted ASPs. To ensure that the
                  broadest range of drug codes is subject to OIG’s pricing comparisons, we
                  examined HCPCS codes with complete AMP data (i.e., HCPCS codes
                  with AMP data for every NDC that CMS used in its calculation of
                  volume-weighted ASPs), as well as HCPCS codes with partial AMP data
                  (i.e., HCPCS codes with AMP data for only some of the NDCs that CMS
                  used in its calculation of volume-weighted ASPs).
                  For all HCPCS codes with partial AMPs, we accounted for missing data
                  by substituting each missing AMP value with the manufacturer-reported



                  22
                     Of these four quarters, CMS made actual AMP-based price substitutions only in the
                  second and third quarters of 2013.

                  23
                     ASP, WAC, and crosswalk data from the first through fourth quarters of 2012 were

                  current as of June 2012, September 2012, December 2012, and March 2013, respectively. 

                  AMP data from the first through fourth quarters of 2012 were current as of May 2012, 

                  August 2012, January 2013, and March 2013, respectively. 




Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)             5
                  WAC for the NDC.24 This approach enabled us to calculate
                  volume-weighted AMPs for these HCPCS codes using the full set of
                  NDCs. Because WACs do not represent actual transaction prices and do
                  not include “prompt pay” discounts or other discounts, rebates, or price
                  reductions, they are typically higher than AMPs and therefore function as
                  conservative proxies for missing AMP values.25, 26 Appendix B describes
                  in more detail the methods used to calculate volume-weighted AMPs for
                  all HCPCS codes.
                  Comparing Volume-Weighted ASPs and AMPs for 2012
                  For each quarter of 2012, we compared the volume-weighted ASPs and
                  AMPs and identified all HCPCS codes with ASPs that exceeded the AMPs
                  by at least 5 percent.
                  In addition, we identified codes with complete AMP data that exceeded
                  the threshold in two consecutive quarters or three of four quarters,27 codes
                  that were identified by FDA as being in short supply,28 and codes with
                  AMP-based substitution amounts that were greater than the ASP-based
                  payment amounts for the quarter in which the price substitution would
                  have occurred.29
                  We merged the results of the four quarterly pricing comparisons and
                  identified (1) the HCPCS codes that would have been eligible for price
                  substitution on the basis of data from one or more quarters of 2012, (2) the
                  codes for which CMS actually substituted prices, and (3) the codes that
                  would not have been eligible for price substitution because they did not
                  meet one or more of CMS’s criteria.


                  24
                     Pursuant to section 1847A(c)(6)(B) of the Act, the WAC is defined as the
                  manufacturer’s list price for the drug or biological to wholesalers or direct purchasers in
                  the United States as reported in wholesale price guides or other publications of pricing
                  data for drugs or biologicals.
                  25
                     First Databank, Inc., Drug Pricing Policy, accessed at http://www.fdbhealth.com/
                  policies/drug-pricing-policy on October 23, 2013. 

                  26
                     WACs were greater than AMPs for over 90 percent of NDCs included in CMS’s 

                  quarterly ASP files for 2012; median percentage differences in each quarter ranged from

                  42 to 51 percent.

                  27
                     To accurately identify codes that exceeded the 5-percent threshold in two consecutive

                  or three of four quarters, our pricing comparisons from the first three quarters of 2012 

                  also examined quarterly results from 2011. 

                  28
                     To identify drugs that FDA determined to be in short supply, we consulted FDA’s 

                  Current Drug Shortages Index, available online at http://www.fda.gov/drugs/drugsafety/

                  drugshortages. Accessed on September 24, 2012; November 6, 2012; February 4, 2013;

                  and April 4, 2013. 

                  29
                     As mentioned previously, AMP-based price substitutions based on pricing data from

                  the first through fourth quarters of 2012 would have applied in the fourth quarter of 2012

                  through the third quarter of 2013, respectively. 




Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)                   6
                  We also estimated savings for each of the HCPCS codes that exceeded the
                  5-percent threshold in a given quarter of 2012.30 To do this, we calculated
                  103 percent of the volume-weighted AMP and subtracted this amount
                  from the reimbursement amount for the HCPCS code during the quarter in
                  which the price substitution would have occurred/did occur.31 For
                  example, for each code that exceeded the threshold in the first quarter of
                  2012, we subtracted 103 percent of that quarter’s volume-weighted AMP
                  from the published reimbursement amount for the fourth quarter of 2012.
                  Then, to estimate the financial effect of lowering reimbursement for the
                  applicable quarter, we multiplied the difference by one-fourth of the
                  number of services that were allowed by Medicare for each HCPCS code
                  in 2012, as reported in the PBAR.
                  Limitations
                  We did not verify the accuracy of manufacturer-reported ASP, AMP, and
                  WAC data, nor did we verify the underlying methodology used by
                  manufacturers to calculate ASPs and AMPs. We also did not verify the
                  accuracy of CMS’s crosswalk files or examine NDCs that CMS opted to
                  exclude from its calculation of Part B drug reimbursement amounts.
                  Manufacturers are required to submit their quarterly ASP and AMP data to
                  CMS within 30 days after the close of the quarter. Our analyses were
                  performed on ASP and AMP data compiled by CMS soon after that
                  deadline. We did not determine whether manufacturers provided any
                  updated data to CMS at a later date.
                  Standards
                  This study was conducted in accordance with the Quality Standards for
                  Inspection and Evaluation issued by the Council of the Inspectors General
                  on Integrity and Efficiency.




                  30
                     Our published quarterly pricing comparisons for the first and second quarters of 2012
                  contained savings estimates that may differ from the savings estimates presented in this
                  annual overview because of updated data and changes to the way OIG compares prices
                  for HCPCS codes with partial AMPs. Results from our quarterly pricing comparisons for
                  the third and fourth quarters of 2012 did not contain savings estimates and were not made
                  available to the public.
                  31
                     Savings estimates for price substitutions that occurred in the second and third quarters
                  of 2013 were calculated without regard to the reductions imposed by sequestration.



Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)                   7
                  FINDINGS
                  CMS’s price substitution policy would have saved
                  Medicare and its beneficiaries almost $2 million over
                  1 year
                  Of the 472 HCPCS codes examined during 2012, 14 met all of CMS’s
                  price substitution criteria during at least one quarter. These codes
                  exceeded the 5-percent threshold in two consecutive quarters or three of
                  four quarters using complete AMP data, were not identified by FDA as
                  being in short supply, and had AMP-based substitution amounts that were
                  less than the ASP-based reimbursement amounts for the quarter(s) in
                  which a substitution would have occurred/did occur.32 If CMS had
                  substituted the ASP-based reimbursement amounts with 103 percent of the
                  AMPs for all 14 HCPCS codes during the applicable quarters, Medicare
                  and its beneficiaries would have saved an estimated $1.8 million between
                  the fourth quarter of 2012 and the third quarter of 2013.33

                  Because CMS did not begin lowering reimbursement amounts for eligible
                  drugs until the second quarter of 2013, only 8 of the 14 eligible HCPCS
                  codes were subject to actual price substitutions. According to OIG
                  estimates, price substitutions in the second and third quarters of 2013 for
                  these eight HCPCS codes saved Medicare and its beneficiaries
                  approximately $819,000, which represents 46 percent of the total
                  estimated savings for the year.

                  Table 1 lists the 14 HCPCS codes, including the quarter(s) during which
                  the price substitution would have occurred/did occur.




                  32
                     Seven additional HCPCS codes exceeded the 5-percent threshold in two consecutive
                  quarters or three of four quarters but were identified as being in short supply and/or had
                  AMP-based substitution amounts that were greater than the ASP-based reimbursement
                  amounts for the quarters in which the price substitutions would have occurred.
                  33
                     As mentioned previously, AMP-based price substitutions calculated using pricing data
                  from the first through fourth quarters of 2012 would have been applied in the fourth
                  quarter of 2012 through the third quarter of 2013, respectively.



Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)                   8
    Table 1: HCPCS Codes That Met CMS’s Price Substitution Criteria
                                                                                        Quarter(s) in Which Price Substitutions
                                                                                          Would Have Occurred/Did Occur

     HCPCS            Description                                 HCPCS Code             Fourth        First      Second        Third
     Code                                                         Dosage                Quarter      Quarter      Quarter     Quarter
                                                                                           2012        2013         2013        2013
     J0456            Azithromycin injection                     500 mg                                                  X*               X*
     J0500            Dicyclomine injection                      20 mg                          X                        X*
     J0595            Butorphanol tartrate injection             1 mg                                                    X*
     J0610            Calcium gluconate injection                10 mL                          X            X
     J1205            Chlorothiazide sodium injection            500 mg                         X
     J1570            Ganciclovir sodium injection               500 mg                                                  X*
     J1756            Iron sucrose injection                     1 mg                           X            X
     J1955            Levocarnitine injection                    1 gm                           X
     J2501            Paricalcitol injection                     1 mcg                          X            X
     J2675            Progesterone injection                     50 mg                          X                        X*
     J2780            Ranitidine HCl injection                   25 mg                          X
     J9065            Cladribine injection                       1 mg                           X            X           X*
     J9211            Idarubicin HCl injection                   5 mg                           X            X           X*               X*
     J9214            Interferon alfa-2b injection               1 million units                X            X           X*               X*
    Note: Because CMS began making price substitutions in the second quarter of 2013, codes marked with an asterisk (*) had actual

    price substitutions in the specified quarters. 

    Source: OIG analysis of ASP and AMP data from 2011 and 2012. 





                    Expanding the price substitution criteria would have
                    generated a quarter of a million dollars in additional
                    savings for Medicare and its beneficiaries
                    CMS has maintained a cautious approach to price substitutions to ensure
                    that reimbursement is reduced only in appropriate cases. However, this
                    cautious approach reduces the effectiveness of statutorily mandated ASP
                    monitoring by limiting the number of Part B drugs eligible for price
                    substitution. If CMS had expanded its price substitution criteria to include
                    certain other Part B drugs in 2012, Medicare and its beneficiaries would
                    have saved an additional $253,000 over 1 year.34
                    An additional $225,000 would have been saved by expanding
                    the criteria to include HCPCS codes with complete AMP data in
                    a single quarter
                    Nineteen HCPCS codes with complete AMP data exceeded the 5-percent
                    threshold in at least one quarter of 2012 but were not eligible for price


                    34
                         All savings estimates in this finding have been rounded to the nearest thousand.



Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)                                              9
                  substitution in that quarter because they did not meet CMS’s duration
                  criteria (i.e., did not exceed the threshold in two consecutive quarters or
                  three of four quarters).35 Of these 19 HCPCS codes, 7 exceeded the
                  threshold during multiple quarters of 2012, indicating that the price
                  discrepancies were not merely the results of temporary price fluctuations.
                  In fact, two of the codes were actually subject to price substitutions in
                  subsequent quarters. If the 19 drug codes had been eligible for price
                  reduction on the basis of data from a single quarter only, Medicare and its
                  beneficiaries would have saved an additional $225,000 between the fourth
                  quarter of 2012 and the third quarter of 2013. A list of the 19 HCPCS
                  codes is presented in Appendix C.
                  An additional $29,000 would have been saved by expanding
                  the criteria to include HCPCS codes with partial AMP data
                  When we used WACs as proxies for missing AMPs, five HCPCS codes
                  exceeded the threshold in at least one quarter of 2012.36, 37 Given that
                  WACs were higher than AMPs for the vast majority of drug products
                  covered under Part B in 2012, these results suggest that the ASPs for these
                  five HCPCS codes may be excessive and that price substitutions may be
                  warranted in these cases. We estimate that if reimbursement amounts for
                  the five HCPCS codes had been based on 103 percent of the AMPs during
                  the applicable quarters, Medicare expenditures would have been reduced
                  by $29,000 between the fourth quarter of 2012 and the third quarter of
                  2013. A list of the five HCPCS codes is presented in Appendix D.




                  35
                     These 19 drugs were not identified by FDA as being in short supply and did not have
                  AMP-based substitution amounts that were greater than the ASP-based reimbursement
                  amounts in the quarter(s) during which the substitution(s) would have occurred.
                  36
                     These five drugs were not identified by FDA as being in short supply and did not have
                  AMP-based substitution amounts that were greater than the ASP-based reimbursement
                  amounts in the quarter(s) during which the substitution(s) would have occurred.
                  37
                     An additional six HCPCS codes with partial AMP data exceeded the 5-percent
                  threshold in at least one quarter of 2012 but were identified as being in short supply
                  and/or having AMP-based substitution amounts that were greater than the ASP-based
                  reimbursement amounts for the quarters in which the price substitutions would have
                  occurred.



Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)                 10
                  CONCLUSION AND RECOMMENDATIONS
                  When Congress established ASP as the basis for Medicare Part B drug
                  reimbursement, it also provided a mechanism for monitoring market prices
                  and limiting potentially excessive ASP-based payment amounts.
                  Specifically, the ASP statute mandates that OIG monitor ASPs by
                  comparing them with AMPs and widely available market prices and
                  directs CMS to lower reimbursement for certain drugs on the basis of
                  OIG’s findings. Since the ASP payment methodology took effect in
                  January 2005, OIG has fulfilled its responsibility to monitor ASP-based
                  payment amounts by completing 29 quarterly comparisons of ASPs and
                  AMPs and consistently recommending that CMS lower reimbursement for
                  drugs that exceed the 5-percent threshold. CMS began making price
                  substitutions in April 2013.
                  Currently, CMS’s price substitution policy is relatively narrow in scope; it
                  is limited to only certain codes with complete AMP data. Under this
                  policy, 14 drug codes would have been subject to reimbursement
                  reductions on the basis of data from 2012, saving Medicare and its
                  beneficiaries an estimated $1.8 million between the fourth quarter of 2012
                  and the third quarter of 2013. However, because CMS did not begin
                  substituting prices until the second quarter of 2013, only eight drug codes
                  were actually subject to reductions, generating an estimated $819,000 in
                  savings.
                  Although the dollars associated with short-term payment adjustments may
                  be modest relative to total expenditures for Part B drugs, savings achieved
                  through price substitution in the long term could reduce waste and
                  conserve taxpayer funds at a time when increased focus has been placed
                  on rising health care costs and fiscal responsibility. We estimate that CMS
                  has already generated over $800,000 in savings by implementing its
                  current price substitution criteria and that the agency could achieve even
                  greater savings for Medicare and its beneficiaries by expanding those
                  criteria. Therefore, we recommend that CMS:
                  Expand the price substitution policy to include HCPCS codes with
                  complete AMP data that exceed the threshold in a single quarter
                  CMS has expressed concern that price substitutions based on results from
                  a single quarter would not account for temporary fluctuations in market
                  prices; therefore, the agency lowers reimbursement amounts for only those
                  codes with complete AMP data that exceed the 5-percent threshold in two
                  consecutive quarters or three of four quarters. However, this cautious
                  approach reduced the effectiveness of ASP monitoring in 2012.



Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)     11
                  Even temporary fluctuations in ASPs and AMPs may represent legitimate
                  pricing discrepancies that lead Medicare and its beneficiaries to overpay
                  for certain drugs, if only for a single quarter. Because price substitutions
                  will remain in effect for only one quarter and will be resolved when any
                  temporary fluctuations are corrected, we recommend that CMS include in
                  its price substitution policy all HCPCS codes with complete AMP data that
                  exceed the 5-percent threshold, regardless of the duration of the price
                  discrepancies.
                  Expand the price substitution policy to include HCPCS codes with
                  partial AMP data
                  Because we used WACs as proxies for missing AMPs rather than
                  removing the NDCs from our calculations, the pricing comparisons for
                  HCPCS codes with partial AMP data in 2012 are based on the same set of
                  NDCs. This new methodological approach should help alleviate CMS’s
                  concerns that comparisons for codes with partial AMP data may lead to
                  incomplete and inaccurate volume-weighted prices because different sets
                  of NDCs’ sales are used in the calculations. Because the risk of
                  substituting ASP-based reimbursement with an artificially low
                  volume-weighted AMP is likely diminished when WACs are used in place
                  of missing AMP values, we recommend that CMS include HCPCS codes
                  with partial AMP data in its price substitution policy.
                  Furthermore, by excluding from its policy all codes with partial AMP data,
                  CMS may inadvertently provide drug manufacturers with a disincentive to
                  submit timely AMPs. CMS could avoid this potential disincentive by
                  expanding the price substitution policy to include HCPCS codes with
                  partial AMPs.




Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)    12
                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                  RESPONSE
                  CMS did not concur with our recommendation to expand the price
                  substitution policy to include HCPCS codes with complete AMP data that
                  exceed the threshold in a single quarter. CMS stated that it appreciates the
                  potential for additional cost savings but is concerned that results from a
                  single quarter may suggest aberrance rather than a market trend and that
                  implementing a more aggressive version of the price substitution policy
                  may affect access to the affected drugs by inadvertently lowering payment
                  amounts below providers’ acquisition costs. CMS additionally noted that
                  implementing this recommendation would require the agency to undertake
                  notice-and-comment rulemaking.
                  CMS also did not concur with our recommendation to consider expanding
                  the price substitution policy to include certain HCPCS codes with partial
                  AMP data. CMS remains concerned that partial AMP data comparisons
                  may not adequately account for market-related drug price changes and
                  may lead to the substitution of inaccurate prices. According to CMS,
                  these substitutions may impact physician and beneficiary access to drugs,
                  even when using conservative approaches, such as substituting missing
                  AMPs with WACs.
                  OIG agrees that access to prescription drugs is a significant concern that
                  should always be considered when contemplating pricing policies.
                  However, we continue to believe that CMS can achieve a better balance
                  between safeguarding access to drugs and ensuring that Medicare and its
                  beneficiaries do not overpay for drugs with ASPs that exceed the AMPs
                  by the threshold percentage.
                  For the full text of CMS’s comments, see Appendix E.




Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)       13
                  APPENDIX A
                  CMS’s Equation for Calculating Volume-Weighted Average
                  Sales Prices
                  A volume-weighted ASP is calculated for the dosage amount associated
                  with the HCPCS code. In the following equation, the “Number of Billing
                  Units” represents the number of HCPCS code doses that are contained in
                  an NDC. CMS uses billing units when calculating a volume-weighted
                  ASP because the amount of the drug represented by an NDC may differ
                  from the amount of the drug specified by the HCPCS code.


                 Volume-Weighted ASP                   Sum of (ASP for NDC x Number of NDCs Sold)
                  for Dosage Amount  =
                    of HCPCS Code               Sum of (Number of NDCs Sold x Number of Billing Units in NDC)




Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)              14
                  APPENDIX B
                  Detailed Methodology for Calculating Volume-Weighted
                  Average Manufacturer Prices for 2012
                  To ensure that the broadest range of drugs would be subject to OIG’s
                  pricing comparisons, we examined HCPCS codes with AMP data for
                  every NDC that was used to calculate Medicare reimbursement (i.e.,
                  HCPCS codes with complete AMP data), as well as HCPCS codes with
                  AMP data for only some of the NDCs that were used to calculate
                  Medicare reimbursement (i.e., HCPCS codes with partial AMP data).
                  Accounting for Missing AMPs
                  For HCPCS codes with partial AMPs, we accounted for missing data by
                  substituting each missing AMP value with the manufacturer-reported
                  WAC for the NDC, as provided in CMS’s quarterly ASP files. If neither
                  the WAC nor the AMP was available for a given NDC, we excluded the
                  corresponding HCPCS code from the analysis.
                  WACs function as conservative proxies for missing AMP values because
                  WACs are typically higher than AMPs. Unlike AMPs, WACs do not
                  represent actual transaction prices and do not include “prompt pay”
                  discounts or other discounts, rebates, or price reductions. As a result,
                  WACs usually exceed AMPs by a significant margin for both Medicare
                  and Medicaid drugs. According to our analysis, WACs exceeded AMPs
                  for over 90 percent of drug products included in CMS’s quarterly ASP
                  files; median percentage differences in each quarter ranged from 42 to
                  51 percent. A 2005 OIG report found a similar trend among drugs
                  reimbursed by Medicaid; AMP equaled WAC minus 25 percent at the
                  median for all drugs and WAC minus 40 percent at the median for generic
                  drugs.38
                  There are also indications that WACs exceed drug acquisition costs.
                  According to estimates in a 2011 OIG report, invoice prices for
                  single-source drugs averaged 99.46 percent of WACs, while invoice prices
                  for multisource drugs averaged 66.68 percent of the WACs.39




                  38
                     OIG, Medicaid Drug Price Comparisons: Average Manufacturer Price to Published
                  Prices, OEI-05-05-00240, June 2005. 

                  39
                     OIG, Review of Drug Costs to Medicaid Pharmacies and Their Relation to Benchmark 

                  Prices, A-06-11-00002, October 2011. Invoice prices are the prices for drugs as listed on 

                  invoices provided by sampled pharmacies. OIG did not attempt to identify any discounts, 

                  rebates, or other price incentives not reflected in the invoice prices. 




Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)                 15
                  Calculating Converted AMPs
                  Because an AMP is reported for the lowest identifiable quantity of the
                  drug contained in the NDC (e.g., 1 milligram, 1 milliliter, one tablet, one
                  capsule) and the ASP is reported for the entire amount of the drug
                  contained in the NDC (e.g., 50 milliliters, 100 tablets), it was necessary to
                  convert each AMP so that it represents the total amount of the drug
                  contained in the NDC. To do this, we multiplied the AMP for each NDC
                  in each quarter by the total amount of the drug contained in the NDC, as
                  identified by sources such as CMS’s crosswalk file, manufacturer Web
                  sites, and drug labels. For some NDCs, we could not identify the amount
                  of the drug reflected by the ASP or AMP and therefore could not calculate
                  a converted AMP. The extent to which NDCs with problematic AMP
                  conversions affected our analysis differed depending on whether the
                  associated HCPCS code had complete AMP data or partial AMP data.
                  HCPCS Codes With Complete AMP Data. If a HCPCS code with
                  complete AMP data had one or more NDCs with a problematic AMP
                  conversion, we automatically excluded that HCPCS code from our pricing
                  comparison for the quarter.
                  HCPCS Codes With Partial AMP Data. If a HCPCS code with partial
                  AMP data had one or more NDCs with a problematic AMP conversion, we
                  did not automatically exclude that HCPCS code from our pricing
                  comparison. Rather, we replaced the converted AMP with the WAC for
                  the NDC. However, if the WAC was not available or if all of the NDCs
                  associated with the HCPCS code had problematic AMP conversions, we
                  dropped the HCPCS code from that quarter’s analysis.
                  Calculating Volume-Weighted AMPs
                  We calculated a volume-weighted AMP for each HCPCS code consistent
                  with the methodology for calculating volume-weighted ASP. Because we
                  used WACs as proxies for missing AMPs rather than removing the NDCs
                  from our calculations, comparisons between ASPs and AMPs are based on
                  the same set of NDCs for all HCPCS codes, including those with only
                  partial AMP data.




Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)      16
                          APPENDIX C

                          Nineteen Drug Codes That Would Have Been Eligible for Price
                          Reduction If Criteria Had Been Expanded To Include All Codes
                          With Complete Average Manufacturer Price Data
                                                                                                 Quarter(s) in Which Price Substitutions
                                                                                                         Would Have Occurred

 Drug        Description                                                     Drug Code            Fourth        First       Second         Third
 Code                                                                        Dosage              Quarter      Quarter       Quarter      Quarter
                                                                                                    2012        2013          2013         2013
 J0456*      Azithromycin injection                                          500 mg                                    X
 J0636       Calcitriol injection                                            0.1 mcg                     X
 J0770       Colistimethate sodium injection                                 150 mg                                    X
 J1110       Dihydroergotamine mesylate injection                            1 mg                                                                    X
 J1165       Phenytoin sodium injection                                      50 mg                                                                   X
 J1270       Doxercalciferol injection                                       1 mcg                       X                                           X
 J1570*      Ganciclovir sodium injection                                    500 mg                                    X
 J1742*      Ibutilide fumarate injection                                    1 mg                                                                    X
 J1953*      Levetiracetam injection                                         10 mg                                                  X
 J2360       Orphenadrine injection                                          60 mg                                     X                             X
 J2720       Protamine sulfate injection                                     10 mg                                     X
 J2800       Methocarbamol injection                                         10 mL                                     X
 J3303       Triamcinolone hexacetonide injection                            5 mg                                                   X
 J3415       Pyridoxine HCl injection                                        100 mg                                                 X
 J7500       Azathioprine, oral                                              50 mg                       X
 J9060       Cisplatin injection                                             10 mg                                     X
 J9185       Fludarabine phosphate injection                                 50 mg                                                                   X
 J9208       Ifosfamide injection                                            1g                          X
 Q0164       Prochlorperazine maleate, oral                                  5 mg                                                                    X
Note: All of the above codes were ineligible for price substitutions in the given quarters only because they did not meet CMS’s duration criteria
(i.e., did not exceed the threshold in two consecutive quarters or three of four quarters). Each code marked with an asterisk (*) either had
actual price substitutions in another quarter or would have had price substitutions in another quarter if the drug had not been in short supply or
did not have an AMP-based substitution amount that was greater than the ASP-based reimbursement amount.
Source: OIG analysis of ASP and AMP data from 2012.




   Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)                                                    17
                          APPENDIX D

                          Five Drug Codes That Would Have Been Eligible for Price
                          Reduction If Criteria Had Been Expanded To Include Codes
                          With Partial Average Manufacturer Price Data
                                                                                              Quarter(s) in Which Price Substitutions
                                                                                                      Would Have Occurred

 Drug        Description                                                   Drug Code           Fourth        First      Second         Third
 Code                                                                      Dosage             Quarter      Quarter      Quarter      Quarter
                                                                                                 2012        2013         2013         2013
 J1650*     Enoxaparin sodium injection                                   10 mg                       X
 J2515      Pentobarbital sodium injection                                50 mg                                    X
 J2540      Penicillin g potassium injection                              600,000 units                            X
 Q0163*     Diphenhydramine HCl injection                                 50 mg                                    X
 Q0164      Prochlorperazine maleate, oral                                5 mg                                     X
* These drug codes also exceeded the 5-percent threshold on the basis of partial AMP data in other quarters of 2012 but during those quarters
were identified as being in short supply or had AMP-based substitution amounts that were greater than the ASP-based reimbursement
amounts.
Source: OIG analysis of ASP and AMP data from 2012.




  Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)                                                18
                     APPENDIX E

                     Agency Comments


     ,r•....""'~
    (.::!1-	        DEPARTMENT OF HEALTH & HUMAN SERVICES                                    Centers for Medicare & Medicaid Services


                                                                                             Administrator
                                                                                             Washington, DC 20201




                   DATE:           JAN - ~ 2014
                   TO: 	         Daniel R. Levinson 

                                 Inspector General 


                   FROM: 	       Marilyn Tavenner 

                                                     /S/
                                 Administrotor 


                   SUBJECT: 	 Oftice of Inspector General (010) Draft Report: Comparing of Average Sales
                              Prices and Average Manufacturer Prices for Medicare Part B Dmgs: An
                              Overview of2012 (OEI-03-13-00570)

                   The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to review and
                   comment on the above subject 010 draft report. This report is part of a series of average sales
                   price (ASP) and average manufacturer price (AMP) comparisons required under section
                   1847 A( d) of the Social Security Act. OIG's objectives for the 2012 overview were to--(!)
                   Estimate the financial impact of substituting Medicare Part B reimbursement amounts for drugs
                   in 2012 that met criteria established by CMS; and (2) Estimate the financial impact of expanding
                   CMS · s criteria for price substitution.

                   The 2012 overview found that the AMP-based price substitution policy that was finalized during
                   rulemaking (77 FR 68892,69140 (Nov. 16, 2012)) resulted in an estimated $819,000 in cost
                   savings during the first two quarters after its implementation. Eight price substitutions were
                   made during these two quarters. However, OIG's review was conducted over a four quarter
                   period, which began two quarters before the price substitution policy was implemented, and the
                   overview identified a total of 14 Healthcare Common Procedure Coding System (HCPCS) codes
                   that met the finalized price substitution criteria during the entire review period. Had all 14
                   substitutions been made during the fourth quarter review period, the estimated savings would
                   have increased to $1.8 million. oro also estimated that expanding the price substitution policy
                   by including HCPCS codes that exceeded the threshold for a single quarter and by including
                   HCPCS codes with partial AMP data could have resulted in an additional quarter of a million
                   dollars in savings.

                   In this overview, OIG substituted missing AMP data with manufacturer-reported wholesale
                   acquisition cost (WAC). The 010 stated that this approach resulted in a conservative value for
                   missing AMPs. Overall, this report identifies modest savings for the Medicare program that was
                   achieved by the implementation of a price substitution policy. As with most previous AMP price
                   substitution reports. the dmgs that exceeded the five percent substitution threshold were typically
                   associated with low Medicare utilization. 010 recommendations and CMS responses to those
                   recommendations are discussed below.




Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)                                                19
                  Agency Comments (continued)




Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)   20
                  ACKNOWLEDGMENTS
                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office.
                  Lauren McNulty served as the team leader for this study. Central office
                  staff who provided support include Meghan Kearns and Christine Moritz.




Comparing ASPs and AMPs for Medicare Part B Drugs: An Overview of 2012 (OEI-03-13-00570)     21
                Office of Inspector General
                                 http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
